LAW OFFICES

WICKER SMITH O'HARA
MCCOY & FORD, P.A.
390 N. ORANGE AVE., SUITE 1000
POST OFFICE BOX 2753
ORLANDO, FLORIDA 32802
(407) 843-3939
FAX (407) 649-8118
WWW.WICKERSMITH.COM

October 2, 2019

Via UPS Overnight Delivery
Danny Bickell, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001
RE:

Johnson, Shirley Jn vs. New Destiny Christian Center Church, Inc., et al.
Case No.:
19-279
Our File No.: AAA-83094-5

Dear Mr. Bickell:
Pursuant to Rule 30.4 of the Rules of the Supreme Court of the United States, please
allow this letter to serve as my formal request for an extension of time in which to file the
Respondents’, New Destiny Christian Center Church, Inc., Paula Michelle Ministries, Inc. and
Paula Michelle White (collectively, “NDCC”), Brief in Opposition to the Petition for Writ of
Certiorari in the above referenced matter.
The above captioned proceeding is an effort by the Petitioner, Shirley Jn Johnson (“Ms.
Johnson”), to have this Court review the decision of the Eleventh Circuit Court of Appeals to
affirm the entry judgment in favor of Ms. Johnson by the United States District Court for the
Middle District of Florida, Orlando Division, on Ms. Johnson’s claim for malicious prosecution.
Ms. Johnson’s Petition for Writ of Certiorari was docketed in this Court on September 3,
2019. As such, NDCC’s Brief in Opposition to the Petition is due to be served and filed with this
Court on October 3, 2019. While I have largely completed drafting the Brief in Opposition, the
Brief in Opposition will not be ready to be filed on the current deadline of October 3, 2019.
NDCC therefore requests an extension of time in which to submit the Brief in Opposition of
fourteen (14) days, up through and including October 17, 2019.

Danny Bickell, Clerk
Supreme Court of the United States
October 2, 2019
Page 2
NDCC’s request for an extension of time is not for the purpose of the delay of these
proceedings, but rather the extension is being requested in order to ensure full compliance with
each of the requirements of this Court for the submission of briefs, which requires the retention
of a third party vendor in order to prepare the physical briefs for submission to this Court.
Undersigned counsel has been in communication with Ms. Johnson, and is authorized to
represent to this Court that Ms. Johnson opposes the relief requested in this motion.
Thank you for your attention to this matter.
Very truly yours,

Michael R. D'Lugo
MRD/reo
cc:
Ms. Shirley Jn Johnson, Pro Se Petitioner
(via U.S. Mail and e-mail: theremnantsjnj@yahoo.com)
1582594

